Audit of Region 9's Administration of the California
Air Compliance and Enforcement Program
                      EPA Office of Inspector General
                      Audit of Region 9's Administration of the California Air
                      Compliance and Enforcement Program
                                              Table of Contents
                                              #7100246

                                            July 24, 1997



Inspector General Division Conducting the Audit:

Western Audit Division
San Francisco, CA

Area Covered:

Region 9
State of California

Program Offices Involved:

Air & Toxics Division
Office of Public Affairs


                                      TABLE OF CONTENTS
CHAPTERS

   1.   INTRODUCTION
   2.   LOCAL AIR DISTRICT ENFORCEMENT ACTIONS WERE NOT SUFFICIENT
   3.   LOCAL AIR DISTRICT PENALTIES WERE LOW
   4.   STATE AND LOCAL AIR DISTRICTS SHOULD PUBLICIZE ENFORCEMENT ACTIONS
   5.   COMPLIANCE ASSISTANCE PROGRAMS HAVE BEEN IMPLEMENTED
   6.   AIR PROGRAM MANAGEMENT INFORMATION SYSTEM WAS INACCURATE

EXHIBITS
     A BARRIERS TO EFFECTIVE AIR ENFORCEMENT PROGRAM

        B EPA-OIG AND GAO REPORTS
       C ENFORCEMENT CASES REVIEWED

APPENDIXES

  1.   SCOPE AND METHODOLOGY
  2.   ACRONYMS
  3.   AGENCY COMMENTS
  4.   DISTRIBUTION LIST
